February 12, 2014

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES


                                      E-Signed by Michael A. Magalski
                                   VERIFY authenticity with eSign Desktop




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Alert – Risks Associated With
                           CB Richard Ellis, Inc. Contract
                           (Report Number SM-MA-14-003)

This management alert presents potential financial risks associated with the U.S. Postal
Service’s real estate management services contract with CB Richard Ellis, Inc. (Project
Number 12YG018DA001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Risks Associated With CB Richard Ellis, Inc.                                                          SM-MA-14-003
 Contract



Introduction

The U.S. Postal Service awarded a contract in June 2011 to CB Richard Ellis, Inc.
(CBRE) to be the sole provider of Postal Service real estate management services. The
Postal Service believed that leveraging the capabilities of a national real estate firm
would allow for a more effective use of limited resources. As the largest real estate
owner in the world, CBRE has one of the broadest industry platforms. In 2012, CBRE
was responsible for more than $189.8 billion in property sales and lease transactions
globally and managed more than 3.3 billion square feet of commercial properties and
corporate facilities.

The U.S. Postal Service Office of Inspector General (OIG) completed an audit in
June 2013 of the Postal Service’s real estate management services contract with
CBRE. 1 We concluded that Postal Service Facilities officials should improve oversight of
the CBRE contract to mitigate inherent risks and conflict of interest concerns. 2 In
response to our recommendations, management implemented a maximum contract
amount and appointed contracting officer’s representatives to monitor contract
performance and approve payments.

Because of the urgency and sensitivity associated with CBRE contract control
weaknesses, we are issuing this alert to make the Postal Service aware of the need to
further modify the CBRE contract.

Conclusion

As a result of our audit and ongoing concerns surrounding the CBRE contract, we have
identified additional information that increases the financial risks to the Postal Service.
Specifically, Postal Service officials modified the contract in June 2012 to allow CBRE to
negotiate on behalf of the Postal Service as well as prospective buyers and lessors in
the same real estate transaction. Also, CBRE was responsible for soliciting appraisals
to determine the fair market value of the properties that it then sells and leases.

The contract modification also requires CBRE to notify the Postal Service of any actual
or potential conflicts of interest, such as owning or having an interest in a property that
may be part of a Postal Service real estate transaction. To date, CBRE has not notified
the Postal Service of any such conflicts. Given the multiple roles CBRE plays within the
real estate industry, the Postal Service should take steps to lessen the potential for
CBRE to engage in transactions that create conflicts of interest. CBRE conflicts of


1
 Contracting of Real Estate Management Services (Report Number SM-AR-13-001, dated June 12, 2013).
2
 Conflict of interest concerns existed because the contractor provided a range of property values to negotiate a lease
and then received a commission from the lessor based on the property value negotiated. Further, the Postal Service
paid the contractor to act on its behalf in negotiating leases and the contractor could also represent the lessor.

                                                          1
Risks Associated With CB Richard Ellis, Inc.                                    SM-MA-14-003
 Contract


interest could lead to financial loss to the Postal Service and decrease public trust in the
Postal Service's brand.

Contract Modification

Initially, Postal Service officials contracted with CBRE to represent the exclusive
interests of the Postal Service. However, they modified the contract on June 28, 2012,
to allow dual agency representation, in which CBRE represents the Postal Service and
prospective buyers and lessors. Officials stated that dual agency representation is a
commercially acceptable real estate practice. They further noted that these types of
practices arose while CBRE provided real estate management services to the Postal
Service. However, the initial contract did not specifically allow for dual agency
representations, and as a result, the contract was modified.

The contract modification requires CBRE to notify the Postal Service of any actual or
potential conflicts of interest within 5 days of any request for or ordering of contract
work. CBRE has submitted 10 dual agency disclosure letters detailing transactions in
which it represented both the Postal Service and potential buyers or lessors. CBRE
potentially violated the initial contract by representing both parties in three of these
transactions before the contract was modified to allow for dual representation. See
Table 1.




                                               2
Risks Associated With CB Richard Ellis, Inc.                                                            SM-MA-14-003
 Contract


                              Table 1. CBRE Dual Agency Notifications

                                                                                                     Notification
       Facility                        Address                              Transaction                 Date
Westport Saugatuck            20 Saugatuck Avenue,
Detached Box Unit             Westport, CT                             Lease of property                 3/19/2012*
Santa Clarita Lyons           23642 Lyons Avenue,
Station                       Newhall, CA                              Lease of property                  4/5/2012*
Oklahoma City                 5701 NW 4th Street,
Westside Station              Oklahoma City, OK                        Sale of property                  6/21/2012*
Oxnard Processing
and Distribution              2901 Camino Del Sol,
Center (P&DC)                 Oxnard, CA                               Sale of property                   9/18/2012
Grant Street                  1001 Liberty Avenue,
Finance Station               Pittsburgh, PA                           Lease of property                  10/9/2013
Alexandria Main               100 High Street,
Post Office                   Alexandria, TN                           Lease of property                  10/9/2013
San Diego Scripps             10060 Willow Creek,
Carrier Annex                 San Diego, CA                            Lease of property                10/30/2013
Austin Chimney                3575 Far West Boulevard,                 Lease of excess
Corners Station               Austin, TX                               property                         10/31/2012
Austin Temporary              9401 Cargo Avenue,
Christmas Space               Austin, TX                               Lease of property                  11/6/2013
Van Nuys Santa                28201 Franklin Parkway,
Clarita P&DC                  Santa Clarita, CA                        Lease of property                11/29/2013
Note: *Transaction occurred before the June 28, 2012, contract modification.
Source: OIG analysis.

Real estate transactions are normally negotiated by agents who stay at arm’s length
from each other’s interests. An arm's length transaction occurs when the buyers and
sellers in the transaction act independently and have no relationship with each other.
Contract terms that give too much financial control to either party and create interwoven
business interests nullify the safeguards of arm’s length transactions. The
Postal Service continues to allow CBRE to conduct transactions despite the disclosure
of non-arm’s length transactions.

Appraisal Services

CBRE is responsible for the marketing, sale, leasing, and leaseback 3 of Postal Service
properties. Initially, CBRE also was responsible for obtaining subcontractors to perform



3
  A leaseback is a financial transaction in which the Postal Service sells an asset and leases it back from the buyer
for an agreed upon term.
                                                            3
Risks Associated With CB Richard Ellis, Inc.                                                          SM-MA-14-003
 Contract


appraisals 4 and the required due diligence 5 associated with these real estate
transactions. To avoid conflicts of interest, the appraisal process is normally managed
and performed by professionals not involved in negotiating the sales and leases or
realtors marketing the properties.

The Postal Service was subject to the risk that CBRE could manipulate transaction
prices to favor its clients or business partners when it managed the appraisal and
negotiation processes for properties the Postal Service sold or leased. However, in
May 2013 the Postal Service changed the process and now obtains the appraisals for
properties that CBRE markets. Therefore, we are not making a recommendation
regarding the appraisal process.

Notification of Other Conflicts of Interest

The contract modification requires CBRE to notify the Postal Service of any actual or
potential conflicts of interest—including whether CBRE or its affiliates own or have an
interest in a property that may be part of a Postal Service real estate transaction. Postal
Service officials stated that, to date, CBRE has not notified the Postal Service of any
such conflicts of interest.

Given the multiple roles CBRE plays for the Postal Service and within the real estate
industry, we are conducting a detailed audit of Postal Service real estate transactions
handled by CBRE. We will examine more closely the potential for conflicts of interests;
however, to immediately reduce the risk associated with the CBRE contract, we are
making the following recommendation.

Recommendation

We recommend the vice president, Facilities:

1. Modify the CB Richard Ellis, Inc. (CBRE) contract to prohibit CBRE from
   representing the Postal Service as well as prospective buyers and lessors in Postal
   Service real estate transactions.

Management’s Comments

Management disagreed with the findings and recommendation. Management stated that
by allowing dual agency arrangements, the Postal Service can obtain wider exposure to
potential offerors and, thus, ensure rigorous competition. Management also stated that
dual agency arrangements are permitted under CBRE’s contract with the U.S. General
Services Administration (GSA) and are a common business practice in the real estate

4
  CBRE obtained appraisals for all disposals it was responsible for and for leases valued more than $250,000.
5
  Due diligence is a thorough analysis of a property, which can include associated studies, market appraisals, and
reviews.
                                                           4
Risks Associated With CB Richard Ellis, Inc.                                   SM-MA-14-003
 Contract


marketplace. They also did not agree with our conclusion that allowing dual agency
arrangements resulted in non-arm's length transactions.

Management further stated that CBRE has not reported any conflicts of interest and it
does not appear that the OIG has identified any actual conflicts of interest. Therefore,
management believe that the reporting and consent requirements they have instituted
are sufficient to minimize any risks associated with conflicts of interest. See Appendix A
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to the recommendation. In
regards to management’s assertion that allowing CBRE to enter into dual agency
arrangements is necessary to obtain wider exposure to potential offerors, we note the
limited number of dual agency disclosure letters. Since the inception of the contract in
June 2011, CBRE has only submitted 10 dual agency disclosure letters and reported no
other conflicts of interest. Therefore, we do not believe CBRE’s marketing ability would
be hampered by prohibiting dual agency arrangements.

We acknowledge that a dual agency arrangement is a legal business practice and is
permitted under CBRE’s contract with the GSA. However, no consensus exists as to the
benefits associated with it and laws vary from state to state. We do not believe allowing
the arrangement is in the Postal Service’s best interest. When representing the Postal
Service, it is important for CBRE to be focused on maximizing revenue when
negotiating sales and leases of Postal Service properties and reducing costs when
negotiating leases of properties for the Postal Service to occupy. This focus is
compromised when it is also representing the interests of the buyer, lessee, or lessor.
We believe that dual agency arrangements give the appearance of non-arm's length
transactions regardless of the controls the Postal Service has in place and the risks of
allowing such transactions outweigh the benefits.

The OIG does not consider management’s comments responsive to the findings and
recommendation in the report but does not plan to pursue it through the formal audit
resolution process. The significant recommendation will be closed with the issuance of
this report. We will continue to evaluate the issue of dual agency in our current audit of
Postal Service real estate transactions.




                                               5
Risks Associated With CB Richard Ellis, Inc.                    SM-MA-14-003
 Contract


                            Appendix A: Management's Comments




                                               6
Risks Associated With CB Richard Ellis, Inc.       SM-MA-14-003
 Contract




                                               7
Risks Associated With CB Richard Ellis, Inc.       SM-MA-14-003
 Contract




                                               8
